HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of Florida,"(A-04-03-06016)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Florida," (A-04-03-06016)
August 29, 2003
Complete
Text of Report is available in PDF format (2.04 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the State of Florida had established adequate accountability and
internal controls over the Medicaid drug rebate program.  The audit covered Medicaid drug rebates through June 30,
2002.  The review showed that the State has the opportunity to increase the amount of revenue that is realized from
drug rebates, and follow the Centers for Medicare & Medicaid Services's (CMS) guidelines in the collection process.  We
recommended that the State the make it a priority to program the existing computer system to calculate interest and verify
that interest payments are accurate and develop policies and procedures that establish write-off criteria for dispute resolution.  State
officials concurred with our findings and recommendations.